<html>
<title> - [H.A.S.C. No. 113-86] INDEPENDENT ASSESSMENTS OF THE FISCAL YEAR 2015 BUDGET REQUEST FOR SEAPOWER AND PROJECTION FORCES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-86]

                       INDEPENDENT ASSESSMENTS OF

                      THE FISCAL YEAR 2015 BUDGET

               REQUEST FOR SEAPOWER AND PROJECTION FORCES

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 12, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
87-618                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
                  Doug Bush, Professional Staff Member
                         Nicholas Rodman, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, March 12, 2014, Independent Assessments of the Fiscal 
  Year 2015 Budget Request for Seapower and Projection Forces....     1

Appendix:

Wednesday, March 12, 2014........................................    19
                              ----------                              

                       WEDNESDAY, MARCH 12, 2014
  INDEPENDENT ASSESSMENTS OF THE FISCAL YEAR 2015 BUDGET REQUEST FOR 
                     SEAPOWER AND PROJECTION FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     2

                               WITNESSES

Grant, Dr. Rebecca, President, Iris Independent Research.........     6
Natter, ADM Robert J., USN (Ret.), R.J. Natter & Associates, LLC.     4

                                APPENDIX

Prepared Statements:

    Grant, Dr. Rebecca...........................................    33
    Natter, ADM Robert J.........................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    43
  INDEPENDENT ASSESSMENTS OF THE FISCAL YEAR 2015 BUDGET REQUEST FOR 
                     SEAPOWER AND PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, March 12, 2014.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Well, I want to welcome all of our members and 
our distinguished panel of experts for today's hearing, focused 
on the fiscal year 2015 budget request. We have testifying 
before us retired Admiral Robert Natter, former commander of 
Fleet Forces Command; and Dr. Rebecca Grant, IRIS Independent 
Research.
    Thank you both for appearing today to share your unique 
perspectives on this important topic.
    Before I begin a specific discussion about the fiscal year 
2015 budget request I want to express my continued concern 
about our overall defense budget request and proposed defense 
spending trends. To put it bluntly, the President's budget 
greatly diminishes our ability for responding to emerging 
threats and decreases our current readiness.
    The harm in our budget deliberations will not be measured 
on the impact to our force structure today, but rather, the 
greatest impact will be the debilitating impact of the 
continued underfunding of the defense strategy and our hampered 
ability to respond to future global security requirements and 
challenges.
    As for the budget request, there are multiple issues I find 
concerning. The most perplexing issue is the perceived 
indifference to the aircraft carrier force structure.
    The budget request supports the defueling of the USS George 
Washington but has not included required funds for the 
refueling. This $450 million deficit in fiscal year 2015 may 
lead to a reduction in the overall aircraft carrier fleet from 
11 to 10.
    Equally problematic is the proposal to not support $300 
million in advanced procurement for additional nuclear reactor 
cores in fiscal year 2015.
    I refuse to accept the current trajectory that reduces our 
aircraft carrier fleet to 10. This runs in contravention to the 
entirety of the global requirement set forth by our combatant 
commanders. When asked about the ability to support the global 
presence demand, Admiral Locklear indicated that even the 
current aircraft carrier fleet was insufficient to adequately 
support requirements.
    I am also concerned about the national capabilities of the 
industrial base and the potential negative consequences that 
threaten to induce greater instability to what already exists. 
Considering the recent closure of Avondale Shipyard in 
Louisiana, I am concerned that a diminished workload will 
precipitate additional restructuring.
    With the truncation of the DDG 1000 program, the 
procurement reduction associated with the Littoral Combat Ship 
[LCS], the potential elimination of an aircraft carrier 
refueling and complex overhaul, and the indecision associated 
with additional amphibious ships after delivery of LPD-27, all 
of these issues will negatively impact the ship construction 
industry. Unless we are able to turn the overall defense trend 
lines in a positive direction, including the shipbuilding 
budget, I am concerned that the Navy will be unable to sustain 
the entirety of the existing industrial base.
    Regarding future Air Force capabilities, I am pleased that 
the Air Force was able to protect its new KC-46 tanker and the 
new long-range strike bomber. These two programs will be 
critical to our nation's ability to project power for decades 
to come. However, it wasn't without cost or consequence to 
other imperative Air Force programs and capability areas such 
as space, airlift, tactical fighters, and necessary 
modernization and upgrade programs that bridged the capability 
gap until the Air Force's top three acquisition priorities are 
fielded.
    I look forward to discussing these important topics with 
our expert panel of witnesses.
    And with that, I turn to my good friend and colleague, the 
ranking member of the subcommittee, Mike McIntyre.

    STATEMENT OF MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman. Thank you for this 
hearing.
    Thank you to our guests for being here with us today.
    As you may well know, our full committee has heard from the 
Secretary of the Navy and the Chief of Naval Operations [CNO] 
about the Navy's budget request coming up, and with regard to 
the Air Force, we will look forward to hearing from the 
Secretary of the Air Force and the Air Force Chief of Staff on 
Friday. And when we consider the proposals before us this 
afternoon, I know there are some questions that I, too, am 
concerned about, just as my good friend, Chairman Forbes, has 
indicated.
    The Navy appears to have done better than other services in 
terms of protecting top budget priorities, but there are still, 
of course, many challenges over the horizon: the future of our 
aircraft carrier force, the size of the future amphibious 
assault ship force, and the Ohio submarine replacement 
program--something that I was discussing this morning in our 
other larger committee hearing. Given the Navy's budget 
projections, can all of these challenges be met--the aircraft 
carrier force, the amphibious assault ship force, and the Ohio 
submarine replacement program?
    For the Air Force, I am pleased it was able to protect the 
new bomber program and the KC-46 tanker. However, the Air Force 
is taking risk in other areas, including retiring more C-130s, 
especially those at Pope Army Airfield in North Carolina, which 
is located at Fort Bragg, and a large number of the older 
tactical fighter and reconnaissance aircraft.
    With regard to the 440th, I want to particularly cite an 
article that appeared in the statewide newspaper, the Raleigh 
News & Observer, just yesterday with regard to the 440th 
Airlift Wing's medical training flight that they describe. And 
their reference is, of course, in this article, talking about 
the proposal with the Air Force being proposed before Congress 
to deactivate the 440th Airlift Wing at Pope Army Airfield, 
which would send 11 of the C-130s to other bases.
    As this states, the 440th has provided airlift, airdrop, 
and medical support from Fort Bragg in Fayetteville, and all of 
the airmen training Monday of this week had been deployed 
overseas at least once. Last year the 440th moved more than 
500,000 pounds of cargo, 3,400 passengers, and 13,000 
paratroopers, working with a combination of both Active Duty 
and Reserve personnel.
    We know that with the expansion at Fort Bragg under the 
last BRAC [Base Closure and Realignment] proceedings and the 
large investment that this Congress has made at Fort Bragg, it 
seems very, very unfortunate, and we feel like very unwise, to 
suddenly pull out the very support group with the Air Force 
that helps the mission at Fort Bragg be carried forward.
    I would hope to hear the witnesses' thoughts on these types 
of topics.
    Also, we know that the DOD [Department of Defense] has 
chosen to focus on potential conflicts where our Navy and Air 
Force will lead in terms of providing rapid response in combat 
power; yet, at the same time there is a proposal to reduce the 
size of the Army up to 150,000 troops by 2019. When we consider 
sequestration and all the concerns that go with it, the concern 
is, will the savings that are supposed to result from those 
reductions in the Army--would they be properly reinvested in 
Navy and Air Force capabilities, or would it just be money to 
help sustain what the Navy and Air Force need to continue?
    The question is, are we going to be able to plan for the 
next-generation technologies, as well, and I would like to hear 
witnesses' thoughts with regard to what the Navy and Air Force 
are pursuing in this budget request. Are those the right 
technologies for us to continue to focus on?
    In other words, are we correct in investing heavily in 
cyber, unmanned systems, directed energy, and electronic 
warfare programs? Are they going to be able to be sustained 
with the work that needs to be done for us to plan properly and 
adequately for the future for our national security and for 
helping our men and women in uniform do the work that they have 
committed to do?
    With that, Mr. Chairman, I thank you and we look forward to 
today's testimony.
    Mr. Forbes. Mike, thank you.
    And I think all the members have the biographies for both 
of our distinguished witnesses today, and we appreciate both of 
you being here. We appreciate the written testimony that you 
have already given to us, which is going to be made a part of 
the record, without objection.
    And now, Admiral, we look forward to any remarks that you 
might want to offer to the committee.

 STATEMENT OF ADM ROBERT J. NATTER, USN (RET.), R.J. NATTER & 
                        ASSOCIATES, LLC

    Admiral Natter. Thank you, Mr. Chairman, Ranking Member 
McIntyre.
    It is my pleasure to appear before you all today. I am 
honored to be able to offer my independent assessment of the 
fiscal year 2015 budget, especially as it pertains to the Navy 
and naval forces.
    First and foremost, I am very thankful for having had the 
opportunity to serve my country--36 years of commissioned 
service in the Navy and 1 year enlisted service. And my wife 
and I are very proud that our three daughters chose to serve 
this country as part of the Navy, two still serving. And I can 
assure you that they provide, as do their friends, a very 
blunt, straightforward assessment of their views and their 
generation's perspective on our military.
    Today our country enjoys a superior military force. Thank 
you to our citizens, who have made the necessary sacrifices, 
and the succeeding generations to make that possible, 
especially on behalf of the representatives in succeeding 
administrations who have represented our people.
    The leadership and national will to invest in ensuring that 
this country has the best military possible has resulted in 
unparalleled quality shipbuilding and aircraft manufacturing. 
Anyone has to just look around the world to see the competition 
and know that that is the case.
    As a representative of dedicated and talented youth who man 
our ships and aircraft, I would be remiss if I didn't recognize 
the undersung heroes who work in our ship repair facilities, 
shipyards, and aircraft manufacturing facilities around this 
great country of ours.
    We have been through a decade--more than a decade--of 
continuous war footing in Iraq and Afghanistan and elsewhere 
overseas. With the anticipated withdrawal of our forces in 
Afghanistan, it is obvious that this country and our elected 
representatives have chosen to retrench as a military, but not, 
hopefully, as a nation.
    And as this committee is well aware, the United States Navy 
is certainly not retrenching; we are continuing to operate and 
deploy around the world at the same levels as our forces had to 
do prior to OEF [Operation Enduring Freedom] and OIF [Operation 
Iraqi Freedom], and that is with a significant reduction in the 
numbers of ships, crews, and aircraft that we enjoyed during 
that period. The result is, of course, running ships, wearing 
our aircraft down, and extending deployments of our men and 
women on our ships at sea.
    Needless to say, our nation and the Joint Forces commanders 
will continue to rely on the Navy and the Marine Corps and all 
our services to be able to respond to a range of military 
operations worldwide.
    Needless to say, we are an international trading community 
today--this country and a lot of other of our allies. They 
depend on freedom of the seas to move markets to and from this 
country and around the world, and without the confidence of our 
allies and trading partners in our ability to keep those sea 
routes open and free, our economy and our markets would be 
affected negatively.
    We obviously have to prepare for the various contingency 
risks around the world. And in that regard, I agree 
wholeheartedly with the CNO's assessment that the Navy will be 
at high risk and not able to prevail in all warfare areas 
against a near peer force.
    And let me be specific about that. He is talking about 
China and Russia. Make no mistake about that: They are a near 
peer force and we would be at risk with the funding and with 
the forces that we have available to us now and in the future.
    The challenge facing the U.S. Navy is budgetary uncertainty 
in the near term and a threat of the return to the potentially 
disastrous sequestration funding levels after 2015. 
Essentially, if we go back to BCA [Budget Control Act] funding 
levels the Navy will not be able to provide the force levels, 
the readiness levels that have been projected and provided to 
you in this morning's hearing.
    I think the CNO has made the case for that and I fully 
agree with that.
    The big elephant at the door was mentioned by Congressman 
McIntyre. That is the Ohio replacement [SSBN-X].
    That replacement is going to require such a huge chunk of 
our SCN [Shipbuilding and Conversion, Navy] funding that our 
industrial base and the ships that we are able to deploy in the 
future is not going to be worth the paper it is written on. 
Unless there is external funding made available for the Ohio-
class replacement, our SCN line and the ships that we are able 
to project out into the future are not going to be in 
accordance with the 30-year shipbuilding plan that you have 
seen.
    Aircraft will also be affected if we return to the funding 
that we are talking about, with 111 fewer aircraft procured in 
the FYDP [Future Years Defense Program]. We obviously, I agree 
with the Secretary and the CNO that we are going to have to 
rein in the significant growth of medical expenses, housing 
stipends, and subsistence payments for our people. And 
retirement remuneration and copays ought to be part of that 
reassessment.
    Having said that, the military makes up 1 percent of this 
nation's population today, and I believe that those kinds of 
adjustments need to be made across the board. There needs to be 
shared sacrifice in our society and not just sacrifice on the 
part of our men and women in uniform.
    The people with whom I have spoken on active duty today are 
willing to step up. They understand the budget constraints of 
this nation and they are willing to sacrifice. They would like 
to be doing it with the rest of our nation and not all alone.
    Lastly, let me just say that I have discussed not only with 
the junior people in the Navy but also our leadership, and I am 
quite frankly dismayed and disappointed by the repeated reports 
of untoward behavior, to include violent sexual assaults, and 
significant shortcomings on the part of some of our military 
leaders. My discussion with the CNO and our other senior 
leaders is that they need to be held accountable, the letter of 
the law needs to be upheld, and the rest of our people need to 
know that that is not going to be allowed and permitted in this 
Navy today.
    With that, sir, I would like to conclude my remarks.
    [The prepared statement of Admiral Natter can be found in 
the Appendix on page 23.]
    Mr. Forbes. Thank you, Admiral.
    Dr. Grant.

  STATEMENT OF DR. REBECCA GRANT, PRESIDENT, IRIS INDEPENDENT 
                            RESEARCH

    Dr. Grant. Thank you, first of all, for the opportunity to 
testify.
    I am glad that the committee today is looking for some 
independent assessments because I think the committee has a 
special responsibility to look at the fiscal year 2015 defense 
budget in light of the changes in the international security 
environment. As we see daily, we are not in the world of 5 
years ago, where stability operations in Iraq and Afghanistan 
were our top concerns. What we see today are signals of 
instability ranging from the East China Sea to the Crimea.
    I will confine my remarks primarily to those Air Force 
systems that are key to projection of forces. And as we know, 
Americans have long counted on air superiority to make all 
other forms of military force most efficient and most 
effective.
    And in looking across this budget, I see that we have an 
opportunity to consider whether we can really take some steps 
to diminish risk and produce a budget that better meets our 
national security needs.
    Specifically for me, my number one concern is that we 
prepare and posture and equip for a strong deterrent stance in 
the Pacific. Specifically, this means being able to retain air 
superiority and sea superiority and that freedom of maneuver 
even if forces of China or another adversary--potential 
adversary--adopt a confrontational stance. China is not the 
only major power in the Pacific nor around the world, but if we 
prepare for a strong deterrent posture there then we get our 
capability right for most of our global needs.
    Freedom of action in the Pacific demands some highly 
sophisticated air forces that can operate with impunity on an 
arch from Australia to the Aleutians, and so looking across 
this budget I have a few specific concerns.
    I am glad to say, I think the Air Force has it largely 
right in its top three priorities with--of F-35, KC-46, and the 
long-range strike bomber. Although it is outside the scope of 
this committee, let me just say very briefly about F-35 that 
that, too, is part of power projection for our joint forces and 
is very important to continue to procure and to increase 
procurement rights to give us a solid capability with a fifth-
gen system.
    KC-46 I am glad to see is proceeding on course. Without 
tankers we do not have global air power; in fact, we really do 
not have global military power.
    And of course, the new stealth bomber is rightly a top 
priority. Why? Because there is no other system in the 
inventory of our partner services or of our allies that can 
provide that rapid, precise strike capability against some of 
potentially the most dangerous targets with the greatest 
possibility to threaten the international security system.
    We are already short in our bomber force, and it is old, as 
the committee well knows. We need to go ahead and procure.
    That said, there are three issues that I think the 
committee might want to think of going forward on the bomber.
    The first of these is, in my personal opinion, 
overclassification. And this can be a risk not only to the 
proper public debate about such a major acquisition, but 
overclassification of a program can also restrict the technical 
work and crossflow that the prime contractors must go through 
to produce an adequate system.
    We know that there will be systems on that bomber that 
should always remain highly classified, but I think the 
committee might want to reconsider the stance on whether this 
program should remain in the black. In my opinion, it should 
not.
    Second, is the technology scope right for this bomber? We 
want to keep the costs controlled but we also want to have a 
bomber that is right for a 40-year service life, a period of 
time in which we may see the addition of new electronic 
countermeasures, directed-energy weapons, hypersonic missiles, 
many technologies that require the space, power, appropriate 
engines, and cooling to make this possible going forward.
    Third is quantity. Even back in Desert Storm in 1991 we 
deployed 66 bombers, so 80 to 100 is on the short end of what 
we will need. We may want to consider going for more in the 
end.
    Finally, I want to make some remarks about the industrial 
base. In the 1950s we had 54 major aircraft program starts 
across the fixed-wing inventory for the Air Force and the Navy; 
in the decade of the 2000s we had just nine. What that means 
most of all is that the key of our industrial base, which is 
people, are finding it more difficult to gain the experience 
across multiple programs.
    Going forward, what we need in the industrial base really 
are four things: We need qualified tier-one suppliers; we need 
critical design skills preserved within the design teams--
everything from pyrotechnics for the cockpit on to structures, 
et cetera; we need to have program managers who are experienced 
across a range of programs and able to execute from design 
right through the end of the lifecycle; and finally, we need to 
have that robust series of starts, and particularly, a focus on 
advanced engine technology, which in the end is what often 
separates our Air Force from its peer competitors.
    With that, I would like to close my opening statement and I 
look forward to your questions. Thank you again for the 
opportunity.
    [The prepared statement of Dr. Grant can be found in the 
Appendix on page 33.]
    Mr. Forbes. Dr. Grant, thank you so much.
    And to both of you, if we were talking about an athletic 
event and we were walking in here today and we were talking 
about athletic teams we would--and this were the gymnasium, we 
would look around and we would have all these wonderful banners 
about what our military has done; we would look at the team on 
the floor and we would say, Admiral, kind of as you did, ``They 
are the best in the world.''
    But for both of you, looking at the budgets that have been 
set forth here and projecting out 5 years or 10 years down the 
road, what is the part of it that gives you the greatest 
heartburn as to what you see?
    Because, Admiral, you have had to meet those demands 
before. You know what it is like.
    And, Doctor, you are looking at that industrial base every 
day and watching it wither away.
    What concerns you most about what you are seeing?
    Admiral Natter. Well, I think it is blatantly obvious that 
our investment accounts in our military are on the downslope, 
and nations like China and Russia, their investment accounts 
are on the upslope. So there is going to be a meeting of those 
slopes.
    In real terms, what that means to us is that we are 
deploying our ships more frequently than we did even before OIF 
and OEF, when the rule was essentially 6-month deployments. 
Today it is not uncommon to have 7- and 8-month deployments. 
And the new Fleet Response Plan that is presented, which I 
think is a good one, given the assets that we have, is going to 
result in 8- or 9-month deployments.
    But the more those assets are used and flowed forward so 
that 8 and 9 months become the rule, then the exception is 
going to pretty quickly come to a year. And with that, people 
are not going to stay with us and our ships and aircraft are 
going to get worn out.
    We saw that in an era between Vietnam and between 9/11, 
when we actually had to tie up ships alongside the pier. Many 
of you remember that. And investments and readiness eventually 
turned that around, but we don't want to go there again.
    So to me it is blatantly obvious what is happening here, 
and the number of force levels are going down but the demands 
on those force levels are remaining constant, and in the case 
of the Pacific, probably going up.
    Mr. Forbes. Dr. Grant.
    Dr. Grant. I agree. And I would say there are two things 
that concern me. The number one concern is we are, certainly 
within the Air Force, developing advanced aircraft but not 
procuring them in quantities sufficient to meet the threats 
that are on the very near-term horizon.
    We are not procuring new fighters quickly enough, and 
although we have a bomber program now, you will recall this is 
a program that has started in embryonic ways, stopped, and 
restarted, and we are already late-to-need in the procurement 
for long-range strike. So I am concerned that we are not 
modernizing our combat air forces quickly enough and 
substantially enough.
    A secondary and related concern goes to the readiness and 
training. The effects of sequestration have made a dent in the 
training of the long-term force and those younger aviators who 
have missed certain training evolutions that that force simply 
cannot get back. If we continue to oscillate in our funding of 
flying hours we may impose long-term quality shortfalls on the 
U.S. Air Force that really would be unacceptable.
    Mr. Forbes. And, Doctor, when you talk about the risk of 
not modernizing, we hear that phrase a lot but what does that 
mean? What kind of risk are we assuming?
    Dr. Grant. We are not buying enough aircraft to face down 
and deter a potential peer adversary in the Pacific. Let me be 
specific: We are not buying enough aircraft to overmatch China 
in the Pacific.
    Mr. Forbes. So we had testimony in this subcommittee by 
Admiral Lehman and Gary Roughead probably a year or so ago 
where they talked about a tipping point, where the United 
States, as we continue to drop our military spending, it would 
actually encourage peer competitors to start increasing theirs 
to catch us. They felt we were already there. What do you feel 
about that?
    Dr. Grant. If only we really knew. But I would have to 
agree, we are close to being--we are too close to feel 
comfortable with where we are.
    I think our--we are just now beginning to focus on 
preparing for that theater. We need to focus on it very sharply 
because we want to deter, and to deter means we cannot allow a 
gap to open up in our capabilities.
    I do not think that our competition with China is like our 
former competition with the former Soviet Union, where it was a 
case of matching forces one-for-one. China has natural 
advantages in geography. We need a force big enough and strong 
enough to make sure that China doesn't feel comfortable taking 
risks and pushing out in that theater. And in that case, I 
think we are far too close to the tipping point to be 
comfortable.
    Mr. Forbes. Admiral, you have had to meet these needs of 
our combatant commanders before. We are hearing a lot today 
about perhaps reducing the number of carriers down from 11 to 
10.
    Could you just give us your thoughts on how crucial it is 
to have those 11 carriers, or if you think it is crucial? And 
secondly, in the area of munitions, how crucial is that and 
where do you see us with this budget?
    Admiral Natter. Yes, sir. Mr. Chairman, as you know, the 
commander of Pacific Command has testified on the requirement 
for carriers in his theater. I can assure you that the 
commander of Central Command will also echo that requirement.
    There are certainly not enough carriers to satisfy the 
demands of all our combatant commanders. They have all 
testified to that point.
    The issue and the quandary is, how many are enough? And 
unfortunately, we really can't say the answer to that question 
until post-hostilities.
    Having said that, every one of our combatant commanders 
have testified, and certainly the Chief of Naval Operations has 
testified that 11 is just barely sufficient to satisfy the 
need, and it doesn't fully satisfy the need of all the 
combatant commanders.
    So going from 11 to 10 and eliminating a capital ship like 
this halfway through its life is irresponsible on the part of 
our citizens. And I think if our citizens had the vote on this 
and they knew what the tradeoffs were that they would ensure 
that this national asset was funded.
    The aircraft that go with it, the ability to project power, 
and the ability to prevent the kinds of action that Dr. Grant 
was referring to out in the Pacific theater are important. And 
so the fact that we are talking about going to 10 carriers and 
the ability to flow far fewer assets than we have been able to 
in the past puts us at greater risk.
    The CNO has testified that against a peer competitor, two 
mission areas are at high risk. I think the slope of that curve 
is obvious.
    Mr. Forbes. And if both of you could just address your 
worry, if any, on munitions?
    Admiral Natter. On munitions, there is a requirement for 
more advanced munitions, and on the part of the Navy, a better 
surface-to-surface capability. I know the commander of Pacific 
Command is well aware of that. We have had discussions about 
that. The Navy is investing in that.
    The depth of our munitions is an issue. We are okay in some 
areas. We need more in the way of more precision and more 
highly capable munitions. And of course, a lot of that is 
dependent upon the threat and the potential adversary, but I 
think against a high-end [threat] there is no doubt that we 
need greater investment in munitions.
    Mr. Forbes. Dr. Grant, your thoughts?
    Dr. Grant. I agree. We probably have enough Mark 83 bomb 
bodies in the inventory, but I doubt we have enough of much of 
anything else across the spectrum.
    We see in every conflict a shortage of some type of crucial 
munition. In the Kosovo conflict of 1999 it was a shortage of 
JDAMs [Joint Direct Attack Munition] and they had to be rushed 
through production. This happens to us every time.
    The difference in a peer conflict will be that we won't 
have the luxury of time to spin up production lines, rush 
munitions, trade them between theaters, move them between 
ships, move them from ships to airbases and airbases to ships. 
We need to have in place in theater a wide range of munitions--
the correct air-to-air munitions; we need to have, if we may 
count them as such, munitions such as THAAD [Terminal High 
Altitude Area Defense] and Patriot.
    These need to be where they need to be before the crisis 
starts. That is crucial to giving our policymakers options as 
we face a potential peer competitor.
    Almost part two of this is the imperative to invest in our 
more sophisticated range of munitions--JASSM [Joint Air-to-
Surface Standoff Missile]; LRASM [Long Range Anti-Ship 
Missile]; the more sophisticated air-to-air and dual-role air-
to-air, air-to-ground munitions that we see coming. These are 
expensive options to start with. It is painful to put them into 
a budget at any time, particularly now. Yet it is that munition 
that in the end does the job.
    It is like the tires on your car. That is the only thing 
that is in contact with the road. In the end, that munition is 
what is in contact with the adversary target. This is not an 
area that we can skimp.
    Mr. Forbes. And do both of you agree that in the past we 
have been short munitions but we have had the luxury, as, I 
think, Dr. Grant, you mentioned, to ramp those up because of 
the adversaries we were facing, but in a near competitor 
situation we would not have that luxury? And if that--you do 
agree with that, where do you see this budget taking us in 
terms of the munitions gap?
    Admiral Natter. Well, the focus and emphasis on the part of 
the Navy, of course, is replacing old ships and older aircraft. 
And with the BCA [Budget Control Act] and then the BBA 
[Bipartisan Budget Act], the funding to reach down and replace 
those munitions and restore the kinds of advanced munitions 
that Dr. Grant addressed is--the money is not there.
    They are doing it with some development areas. I will tell 
you, I have had this discussion, I know the fleet commanders 
have been straightforward about wanting to get some decent 
surface-to-surface missile capability on the LCS. There are 
some obvious missiles that can be put on that ship in the near 
term, and the Navy needs to get off the dime and get on with 
it.
    Hellfire is the perfect example of a missile that Navy has 
in its inventory. The Army literally has thousands of them. The 
Navy puts them on their seaborne helicopters today.
    I think that some sort of missile system and an anti-air 
capability on the LCS would go a long way to having the fleet 
commanders better embrace that ship. That can be done quickly--
certainly much more quickly than it is being done today.
    Mr. Forbes. Good.
    Dr. Grant.
    Dr. Grant. I agree. I think this budget may not have looked 
carefully enough at what we really need to prepare for a peer 
threat. It is something we are all hoping won't happen, but 
we--this is the defense planning cycle. We must look for 
capacity. And this is true, again, with munitions.
    It is very tempting to cut or stretch or delay. A lot of 
early munitions work is done in basic research accounts or in 
classified programs, where it is hard to look at what is truly 
going on.
    But I think we see this temptation to stretch and skimp. We 
are all hoping not to have to use these things, but you would--
but unless you have that capacity then the purchase of the 
platforms is--you know, is--why would you do it anyway?
    And this is something that is easy to get right. It is easy 
to get the munitions inventory correct.
    We hear all the time, ``You don't want to be Winchester,'' 
in this environment, and it is easy to prevent that. So I think 
we need to continue the investment both in getting the correct 
inventories, positioning them correctly, and in the advanced--
the suite of advanced munitions for a range of platforms and 
services.
    Mr. Forbes. Thank you.
    And I would like to recognize Congressman McIntyre for any 
questions he might have.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you again to our witnesses.
    Admiral Natter, on pages three and four of your testimony 
and then you also just orally referred to the concern about the 
Air Force--I mean, sorry, the aircraft carrier force structure 
being reduced in the Navy with the current proposal. If this 
happens--and I think we are in agreement with you, we do not 
want it to happen--but if it were to happen, how would we 
mitigate, would you recommend, the shortfall in our day-to-day 
presence overseas? I know it is all about force projection, and 
with the concern of losing one of our carriers such as the USS 
George Washington, what would you say we could do to mitigate 
that loss?
    Admiral Natter. Well, the loss of that carrier would result 
primarily in the ability to flow forces beyond the two-carrier 
presence that the CNO is providing the theater commanders.
    In the case of Pacific Command, we have the forward-
deployed carrier that is generally available on short notice. 
We also have one always deployed out in that theater or over in 
the Central Command theater that can flow quickly into the 
Pacific Command theater if required.
    The challenge will be the flow of additional carriers into 
the theater should a contingency erupt in North Korea, with 
respect to the islands, or with respect to any incident in the 
South China Sea. Today the Navy is able to flow three carriers 
in addition to the two in theater.
    That won't be an option should we go down to 10 carriers. 
So that is going to be the shortcoming.
    The reality is in order to provide a carrier's worth of 
aircraft, strike capability 24 hours a day, you need two decks 
to do that for any extended period of time because flight deck 
crews, pilots, ships need to sleep occasionally. And so with a 
two-carrier capability providing one 24-hour cycle of assets, 
that is not sufficient firepower with the kinds of challenges 
that we are talking about in the Pacific theater.
    So there is going to be an obvious and I think a negative 
impact on our ability to provide the forces necessary that this 
nation depends on.
    Mr. McIntyre. Yes, sir. I agree with you.
    Now, also on page 5 of your testimony you refer to the 52-
ship smaller surface combatant requirements, and in looking at 
your comments there you talk about the unmatched capability 
that we need to have with the LCS program, but it does not 
mean, you say, that every ship needs to possess 360-degree 
defense and offense supremacy. So is your recommendation that 
if we are under--and I know the DOD has given some instructions 
about this with regard to Littoral Combat Ships--that 
modification or making sure that we keep the same number if at 
all possible but just making modifications on the ships 
themselves if we do not have the financial wherewithal to do 
what we would like to do ideally on all 52 of them?
    Admiral Natter. Yes, sir. As I testified just a few minutes 
ago, I think there needs to be some surface and surface-to-air 
capability on those ships yesterday. I think that can be done 
quickly and ought to be.
    These ships are necessary for the Navy to fulfill its 
mission in things like antipiracy patrols. They are going to be 
a far superior ship for the mine warfare mission. I was on a 
minesweeper as an ensign and JG [junior grade] and I can tell 
you that the ability to sustain mine warfare operations for a 
long period of time is going to be much more capable on the LCS 
than it ever thought of being on its predecessor mine warfare 
ships. It also will deliver some significant ASW [anti-
submarine warfare] capability.
    So for the level zero, level one contingency kinds of 
requirements of our combatant commanders today, these are good 
ships. And they are going to grow and they are going to be 
better as technology comes in.
    The alternative, of course, is to have even fewer ships to 
be able to deploy to the combatant commanders for things like 
antipiracy, for things like mine warfare, and ASW, and working 
with our allies and friends in the Southeast Asia theater. 
These are perfect ships for that theater.
    So I support the ship. I would like to see a little more 
kill power on them.
    Mr. McIntyre. Right. Thank you, sir.
    Dr. Grant, just quickly in the few moments I have left, the 
Air Force, of course, as you have well cited in your testimony 
orally and written, is cutting hundreds of aircraft in the 5-
year budget plan. In terms of future technology, do you think 
the Air Force is investing in the right things and do you think 
that the claim of the Air Force to be cutting these aircraft 
because it wants to protect its top three programs--the new F-
35, the new bomber, and the KC-46 tanker--are the proper 
priorities with the limited sources of funding available?
    Dr. Grant. Yes, Congressman, I think that is their intent. 
I think they are trying to cut in order to reach a force 
structure of the future.
    The question, though, is the risk of executing that plan, 
and I will be more comfortable with taking the lump of the cuts 
when I see that the funding for those top priorities is really 
stable in there and that they are procuring them in the 
quantities required. So I share a little bit of a wait-and-see 
concern, but I think that at this point in time, while there 
are many cuts on this map of the U.S. that make me cringe and 
where I think, ``Oh, I would cut, but maybe I wouldn't have cut 
that particular unit--''
    Mr. McIntyre. Right. Right.
    Dr. Grant. I think overall this could be the right step as 
long as it is done carefully.
    You asked about future technology investment and mentioned 
earlier directed energy and some other things. I think these 
are absolutely vital.
    We have, in the past few years, have seen advances in 
hypersonics and directed energy in particular, and some other 
aspects of electronic warfare, that have really made 
breakthroughs that we have looked for for a long time, and I 
would like to see these continued. I applaud the Air Force's 
investment in adaptive engine technology, which is long and 
complicated but absolutely essential to next-generation combat 
aircraft and to more rapid response through that advanced 
engine technology.
    I cannot stress enough, too, that it is those advanced 
engines that our U.S. companies make that truly separate us 
from our competitors.
    So I hope this committee will look carefully and make sure 
that we are continuing the investments. Something like directed 
energy, which, in fact, the Navy is deploying this summer on a 
ship, this sort of thing has the potential to be quite 
revolutionary, both in defensive--as a defensive and as an 
offensive weapon system, and I would like to see the Air Force 
encouraged to continue its thoughts and experiments as to how 
directed energy and other advanced technologies go on both its 
current and its future platforms.
    Mr. McIntyre. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    I thank the witnesses for their very powerful testimony.
    You know, I think it is important sometimes to remember the 
Budget Control Act is not like we are helpless in front of it, 
and sequestration to boot. The historical precedent of 
sequestration in the 1990s and early 2000s, when Congress came 
together on a bipartisan basis with a balanced package of 
deficit reduction, turned off those chainsaws that were put 
into place with Gramm-Rudman.
    And if you, you know, look at Gramm-Rudman's own words at 
the time, I mean, that was exactly the intended purpose; it was 
not to actually have those mechanisms actually go into effect. 
But, you know, sometimes I think we need to be reminded of what 
the damage will be, and that is what certainly your very 
outstanding testimony today is going to hopefully point this 
Congress in that direction.
    Admiral, I want to first of all thank you for your comments 
on page five about the Navy's investment in modernization of 
the cruisers and three amphibious ships. I think the chairman 
deserves some credit for sort of resisting the push to totally 
retire those cruisers in past years, and I think we have 
actually found a better, smarter way to sort of deal with this 
issue. And your input, I think, is very constructive in that 
score.
    Earlier in your testimony you talk, again, about the 600-
pound gorilla that is sitting out there with SSBN-X, and again, 
this came up with Secretary Hagel last week, and this morning 
with the Secretary of Navy and Admiral Greenert.
    You know, it is not that far off that we are looking at the 
bulge that production is going to cause to the budget, and, I 
mean, you mentioned sort of external assistance to the Navy's 
budget as a solution to it. Maybe you want to talk about that a 
little bit more in terms of whether it is a separate account or 
whether we just enlarge the Navy's piece of the pie?
    Admiral Natter. Well, I would take either option, sir, but 
the reality is this is a strategic national asset that is 
absolutely essential to the survival of this country. It needs 
to be put on a side. I know the Navy has said it is absolutely 
essential. It is the baseline of their sand chart that says, 
``You cut other things before you cut the Ohio replacement.''
    I agree with that. We can't afford not to fund Ohio 
replacement.
    The reality, though, is it is about $6 billion a year for 
about 13 years in the SCN budget, which today is only between 
$11 billion and $14 billion. So if the administration and the 
Congress insist on funding it out of the SCN account then you 
start picking shipyards to close down that are currently 
engaged in building amphibious ships, destroyers, cruisers, the 
submarine, the SSNs will go down in numbers.
    Something has got to give here. My take on it is this is a 
national requirement and it ought to be funded in some way 
other than through the Navy's SCN line. That is up to Congress. 
You are a lot smarter than I am on that, but that is my going 
in proposition, sir.
    Mr. Courtney. Well, thank you for the compliment. I am not 
sure all of us would regard--your testimony is very helpful 
and, you know, I think that is really, you know, an important 
mission for the Seapower Subcommittee to really start 
addressing now. So thank you for being here today.
    Mr. Forbes. Thank you, Joe.
    And as I indicated to both witnesses beforehand, this is 
the time we would like to see if there is anything we have left 
out. Anything you need to clarify, we want to give you an 
opportunity to do that for the record.
    And, Admiral, as you begin that statement, if you could 
follow up on what Joe just mentioned about the cruisers. Tell 
us why the cruisers are important--what do they do and why it 
is important that we have those cruisers.
    Admiral Natter. Yes, sir. I am glad you asked the question. 
I was commanding officer of one of those cruisers. Not the 11, 
but a cruiser.
    The reality is that the DDGs [guided missile destroyers] 
and the cruisers have comparable surface-to-air and anti-air 
capability--different capabilities, but the cruisers are older. 
The value of the cruisers, of course, is that if you update 
them, upgrade them, and ensure the HM&E [hull, mechanical, and 
electrical] is longlasting, it will go with the carrier.
    It has a much larger combat space where you can put what we 
refer to as the air defense commander, or alpha whiskey, to 
coordinate the air defense around the carrier and around the 
battle group. That is essential. You have got to have someone 
looking out for the entire problem rather than just the ship's 
own self-defense and missile defense. So that is a great value 
of these assets.
    The challenge on the part of the Navy is the top line. They 
didn't want to put these ships away. They need the force levels 
to satisfy the combatant commanders, and so this is not their 
idea. They have to satisfy that top line and stay within the 
budget constraints, and this is an innovative way, I think, to 
do that and still have these assets available if there is a 
national emergency. You can certainly bring those back into the 
force much faster than you can build a new ship.
    I would like to see something a little more gradual so that 
you are not putting them all at the end of the train, but I can 
understand the Navy's rationale for doing that. This is 
strictly a matter of tradeoffs: What do you roll out in order 
to satisfy the top line?
    I can tell you that the cruisers may not be the last ships 
that have to go through this kind of an approach, primarily, 
again, because if we stay at the BCA levels all bets are off on 
all this--the cruisers, the carrier, you name it. And then you 
fold on top of that the Ohio-class replacement and the Navy as 
we know it today isn't going to exist any longer.
    Mr. Forbes. Admiral, could you tell us for the record 
exactly what cruisers do in terms of their muscle, and what 
would be the impact to the Navy of losing 11 cruisers?
    Admiral Natter. Well, 11 cruisers, in addition to the 
significant air defense capability--being able to fire a good 
number of missiles out to protect not only themselves but also 
the amphibious ready group, the carrier battle group--also has 
the ability to launch some significant numbers of Tomahawk 
missiles. They have been used in prior engagements. They have 
been very valuable in that regard.
    If you don't have those 11 cruisers then you are going to 
have to cycle DDGs more frequently on deployment in order to 
satisfy the requirements of those Tomahawks, of those air 
defense missile assets.
    The presence. I think we have all seen the movie, or many 
of us have seen the movie, about the SS Alabama and Captain 
Phillips. None of that is even remotely possible without ships 
on station--conventional U.S. Navy ships that the SEALs went 
aboard and operated from. Without some capable asset out there, 
none of that is possible.
    So we as a nation can forget about it. We can forget about 
putting off these pirates, getting them under control. And that 
will affect the sea lines; that will affect the economy; that 
will affect the markets.
    Mr. Forbes. Dr. Grant.
    Dr. Grant. Thank you.
    Just three points. First, help hold the Air Force to its 
air dominance mission so that it acquires the jets and the 
munitions and funds the correct training to keep up this 
vitally important mission.
    Second, if I may jump into Admiral Natter's area, perhaps, 
and make a comment quickly about carriers: It was tempting to 
shave a carrier off when we looked at them primarily for--as 
extra bomb-droppers in permissive airspace. Carriers going 
forward will provide not just extra bombs on target, but air 
dominance, additional surveillance, tactical relay and 
communications--missions we have rarely tapped them for at the 
level we may have to in the Pacific.
    Recall that in 2001, when Operation Enduring Freedom in 
Afghanistan began, four carriers were sent. Three provided air 
superiority; the fourth was stripped of its air wings save for 
a few F-18s and stuffed with a lot of funny-looking black Army 
special ops helicopters.
    So a carrier is an airfield of amazing flexibility. This is 
no time to be talking about getting rid of aircraft carriers.
    Third and final point, if I may say, this is about our two 
strategic programs coming up. One, of course, is the Ohio 
class, and the other is the long-range strike bomber.
    I think we ought to, as a nation, look at both of them as 
important strategic programs and consider whether they should 
not both be funded in a manner that is separate from the other 
ship-buying and aircraft-buying accounts of the day. This was, 
in fact, the case with both Freedom class when it was procured 
in the 1960s, and with Ohio class when it was procured in the 
1980s.
    So SSBN-X and LRS [long-range strike bomber] ought to both 
be looked at for what they truly are--that is, incomparable 
strategic systems which no other service nor ally can 
duplicate.
    Thank you.
    Mr. Forbes. We have been joined by Mr. Langevin.
    And, Jim, do you have any questions?
    If so, I would like to recognize Mr. Langevin for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I will submit my 
questions for the record, but I thank the witnesses for their 
testimony today.
    Thank you.
    Mr. Forbes. Thank you.
    And we want to thank you both for being here today. We 
certainly appreciate your expertise, but most importantly, your 
willingness to share it with this committee.
    If we have no additional questions then we are adjourned.
    [Whereupon, at 2:58 p.m., the subcommittee was adjourned.]


=======================================================================


                            A P P E N D I X

                             March 12, 2014

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 12, 2014

=======================================================================



    [GRAPHIC] [TIFF OMITTED] =======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 12, 2014

=======================================================================


                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Could you briefly describe what you believe the Navy's 
role to be in the coming years and whether you believe it is being 
properly resourced to meet the expected challenges?
    Admiral Natter. The Navy's role for the future will continue to be 
what it has done in the past since World War II. Simply put, its role 
will be to ensure the security of U.S. interests in an ever-expanding 
global economy and world in general. What has changed and evolved over 
the years is the increase in relative economic and military power, 
technological capabilities, and influence of other world powers. And 
therefore the challenge for our Navy will be to invest in the right 
technologies and the right ships and weapon systems while keeping the 
costs of those investments under control. As our nation has 
appropriately addressed the shift of its focus to Asia and the rising 
power and influence of China, our Navy's overall power has reduced in 
real and relative terms. We are shifting Navy forces to Asia primarily 
because of our real reduction in Navy forces overall and the knowledge 
that the Pacific Fleet's historic half of the Navy is now inadequate to 
meet the influence and power of a rising China's influence and power.
    In summary, the Navy is not being adequately resourced to meet our 
nation's potential challenges around the globe.
    Mr. Forbes. What is your sense as to the adequacy of the size of 
the current Navy fleet. Do you think the current ``mix'' of ships is 
correct?
    Admiral Natter. I do not think the current and projected size of 
the Navy fleet is adequate to meet the challenges of our potential 
adversaries without increased risk at prevailing in sustained high end 
combat operations. In reality, the number of counter-ship weapons and 
the technological capabilities of our potential adversaries have 
increased in real and relative terms over the past 20 years. Therefore, 
our Navy's ability to prevail must be assessed as at a higher risk than 
in the past. Given the recent reductions in SCN and APN funding for the 
Navy and the potential for a devastating reduction in those accounts if 
the Ohio replacement ship class is not funded with additional 
Congressionally directed appropriations, the Navy's ship and aircraft 
numbers will reduce to a potentially national military strategy 
altering level. If that is the case, the United States will be unable 
to ensure its treaty and alliance commitments internationally and 
especially in Asia. The current mix of Navy ships is about right given 
the potential for the various force employments against possible 
adversaries. Having said that, the total number of ships is marginally 
adequate while future numbers, given sequestration funding, is 
alarming.
    Mr. Forbes. Admiral Locklear provided testimony last week to the 
House Armed Services Committee and provided the following information 
with regards to the potential reduction of an aircraft carrier, ``You 
have about 10 [aircraft carriers] now. We can't support the global 
demand.'' He went on and said ``One thing for sure, in my experience is 
that--that part of the U.S. global leadership is maritime dominance, 
where we choose to have it. And at the front of that maritime 
dominance, which starts to become very important, particularly in the 
world we're in today, are the capabilities that aircraft carriers 
bring.'' What is your assessment about a potential reduction in 
aircraft carrier force structure and the impact to the supporting 
combatant commander requirements?
    Admiral Natter. I agree with Admiral Locklear's testimony that the 
demand for our nation's aircraft carriers continues to be high and 
sustained. The demand is not only in his Pacific theater of operations, 
but his Central Command counterpart has also been forceful in his 
requests for Carrier presence, especially in the northern Indian Ocean. 
The simple truth is that demand for aircraft carriers exceeds today's 
available resources. The idea of not refueling USS George Washington 
and eliminating that carrier and its air wing is not smart. Our 
nation's investment in this combat capability and the sustained demand 
for its presence in troubled parts of the world in support of our 
treaty and alliance partners necessitate refueling it. Not doing so 
will reduce the ability of our combatant commanders to fulfill their 
responsibilities.
    Mr. Forbes. Admiral Locklear provided testimony last week to the 
House Armed Services Committee and provided the following information 
with regards to the potential reduction of an aircraft carrier, ``You 
have about 10 [aircraft carriers] now. We can't support the global 
demand.'' He went on and said ``One thing for sure, in my experience is 
that--that part of the U.S. global leadership is maritime dominance, 
where we choose to have it. And at the front of that maritime 
dominance, which starts to become very important, particularly in the 
world we're in today, are the capabilities that aircraft carriers 
bring.'' What is your assessment about a potential reduction in 
aircraft carrier force structure and the impact to the supporting 
combatant commander requirements?
    Dr. Grant. My research indicates 11 carriers are the minimum 
needed. Carrier numbers used in major conflicts were 6 for Operation 
Desert Storm in 1991, 4 for the start of Operation Enduring Freedom 
over Afghanistan in 2001, and 5 for Operation Iraqi Freedom major 
combat operations in 2003. The Coalition Air Component Commander tasked 
carriers supporting the Army during Operation Iraqi Freedom to provide 
up to 100 strike sorties per day.
    Pacific theater scenarios could require 9 or more carriers to 
provide fleet defense, 24-hour operations with carriers alternating day 
and night cycles, air superiority and strike missions against sea and 
land targets. It is conceivable that three task forces of three 
carriers each might have to operate in three different locations in a 
major crisis. Carriers must be prepared to participate far more 
actively in countering adversary air threats in future scenarios.
    If up to nine carriers may be tasked for wartime operations, a 
fleet of 11 is the minimum to allow one or two carriers in overhaul and 
transit.
    The carriers are only as good as the planes on their flight decks. 
Sufficient F-35Cs to support joint tasking for defense, communications, 
ISR and strike are essential to carrier effectiveness, as is the E-2D 
Advanced Hawkeye.
    Mr. Forbes. If the Air Force is required to execute fiscal 
resources at Budget Control Act sequestration levels, what operational 
risk do you believe they will incur by having to divest the entire KC-
10 tanker aircraft fleet? In your opinion, are there other force 
structure decisions that the Air Force could consider in lieu of 
divesting the KC-10 fleet prior to having sufficient tanker capacity 
with the addition of the new KC-46 tanker aircraft?
    Dr. Grant. Divestiture of the KC-10 fleet imperils global reach and 
power projection missions. The KC-10 is newer and carries more fuel and 
cargo than the KC-135. Also, recent operations have shown that the KC-
10 is often the preferred tanker for global bomber missions, for 
example, where multiple refuelings are required. The Air Force should 
retire some KC-135s rather than divest the KC-10 fleet prior to 
purchase of KC-46.
    Mr. Forbes. The Air Force has articulated that the F-35 Joint 
Strike Fighter, the new KC-46 tanker, and the new Long-Range Strike 
Bomber are its top three acquisition priorities and vital to emerging 
threats and capabilities. Do you agree with the Air Force's priorities 
and do you believe there are any other areas that are critical Air 
Force capabilities that should be considered high-priority?
    Dr. Grant. I agree with the Air Force's top three priorities. 
Development of advanced air-to-air and air-to-ground missiles should be 
regarded as of equal importance.
    Mr. Forbes. In DOD's fiscal year 2015 budget, there are many 
difficult decisions that had to be made in regards to curtailment or 
discontinuation of active production lines such as F/A-18s, Tomahawk 
Block IV missiles, and the closure of the C-17 production line last 
year. As it relates to considerations for preserving U.S. national 
industrial base capabilities, what industrial base capabilities do you 
assess to be vital or extremely important to U.S. national security 
objectives and capabilities?
    Dr. Grant. Top priority should be given to work on new advanced 
military engines capable of variable cycle efficient supersonic thrust 
(supercruise) for fighter and bomber platforms. Progress in this area 
is essential to air dominance and is a unique, export-controlled area.
    Other priorities should include adapting fiber-optic lasers for 
battlefield applications; design work on the next fighter aircraft; 
hypersonic propulsion and vehicle bodies; disruptive energy sources; 
batteries; and longer-range missiles.
    Mr. Forbes. Do you believe the force structure for the Air Force 
and Department of the Navy, as laid out in the 2014 Quadrennial Defense 
Review, is sufficient to meet the goals and objectives of the 2012 
Defense Strategic Guidance?
    Dr. Grant. The force structure for the Air Force takes considerable 
risk because the 48 fighter squadrons contain many non-stealthy, legacy 
aircraft. Air Force fighter squadrons carry the weight of air 
superiority for joint forces whether in deterrence and shaping, crisis 
response, or major combat operations. Delayed and derailed 
modernization has hurt this force. At this time the force is not enough 
to ensure a comfortable margin of superiority in many Pacific theater 
scenarios. Purchase of the F-35A at a rate of 80 per year is the only 
near-term way to decrease risk and correct the imbalance. Also, it is 
worth noting that the Active Component and Reserve Component Balance 
will place high demands on the Reserve Component fighter forces in the 
event of conflict.
    Likewise, the current bomber force assumes risk because only the 16 
combat-coded B-2s are survivable enough for persistent, penetrating 
operations. The next generation bomber is essential to restore 
America's global strike credibility and the steadying effect of 
deterrence which it brings.
    The Air Force's force structure is also overbalanced with more MQ-
9s than are needed going forward.
    The Department of the Navy force structure as spelled out in QDR 
2014 also assumes risk. The total number of ships is lower than the 316 
in the inventory on September 11, 2001. The QDR force structure wisely 
retains 11 aircraft carriers and 92 large surface combatants. However, 
the total number of ships is reliant on 43 small surface combatants 
including the 25 of the Littoral combat Ship. LCS was conceived almost 
two decades ago at a time when tactical concepts for the coastal areas 
were different and before challenges from a rising China and resurgent 
Russia. LCS is unlikely to prove as versatile as DDGs, for example, in 
the many different operating conditions and missions encountered around 
the globe. In the Pacific, and other regions, the large surface 
combatants such as DDGs are consistently tasked with a range of 
missions and form the core of warfighting capability. The QDR 2014 
force structure falls short in preparing U.S. Navy forces to meet 
challenges at sea over the next 30 years.

                                  <all>

</pre></body></html>
